  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




HIGHMARK MEDICARE SERVICES, INC.,
   CLAIMED SOME UNALLOWABLE
   MEDICARE PENSION COSTS FOR
 FISCAL YEARS 2003 THROUGH 2009



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                        March 2014
                                                       A-07-13-00415
                           Office of Inspector General
                                            https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

   Highmark Medicare Services, Inc., claimed unallowable pension costs of $1.1 million
   for Medicare reimbursement for fiscal years 2003 through 2009.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts. Previous
Office of Inspector General reviews found that Medicare contractors did not always comply with
Federal requirements when claiming pension costs for Medicare reimbursement.

The objective of this review was to determine whether the pension costs claimed by Highmark
Medicare Services, Inc. (Highmark), for Medicare reimbursement for fiscal years (FYs) 2003
through 2009 were allowable and correctly claimed.

BACKGROUND

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

During the period January 1, 2002, through January 1, 2006, Highmark maintained two Medicare
segments: a Medicare Part A segment and a Medicare Part B segment. On January 1, 2006,
Highmark consolidated the Medicare Parts A and B segments into a single Medicare segment.

With the implementation of Medicare contracting reform, Highmark continued to perform
Medicare work after being awarded the Medicare administrative contractor (MAC) (Jurisdiction
12) contract on October 24, 2007. While performing its MAC work, Highmark also functioned
as a Medicare Part A fiscal intermediary and Part B carrier, with those contracts terminating in
July 2008 and December 2008, respectively. Highmark continued to work as the Jurisdiction 12
MAC until January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark,
to DSO.

WHAT WE FOUND

Highmark claimed pension costs of $12,942,825 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $11,860,049.
The difference, $1,082,776, represented unallowable Medicare pension costs that Highmark
claimed on its Final Administrative Cost Proposals (FACPs) for FYs 2003 through 2009.




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                            i
Highmark claimed these unallowable Medicare pension costs primarily because it based its claim
for Medicare reimbursement on incorrectly calculated CAS pension costs.

WHAT WE RECOMMEND

We recommend that Highmark revise its FACPs for FYs 2003 through 2009 to reduce its
claimed Medicare pension costs by $1,082,776.

AUDITEE COMMENTS AND OUR RESPONSE

In written comments on our draft report, Highmark did not directly address our recommendation.
However, it is clear from the comments that Highmark did not agree with our recommendation to
reduce its claimed Medicare pension costs by $1,082,776.

Highmark provided information indicating that it agreed in part with our finding and that it
agreed with our recommendations in related report A-07-13-00414. Highmark did not, however,
agree with the methodology we used when applying prepayment credits. Specifically, Highmark
did not concur with our interpretation of FAR 31.205-6(j)(2)(iii) as it relates to offsetting
prepayment credits from the CAS funding target.

Nothing in Highmark’s comments caused us to change our finding or recommendation. We
disagree with Highmark’s assertions about our methodology for the calculation of pension costs
when prepayment credits exist.




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                          ii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

       Why We Did This Review ...................................................................................................... 1

       Objective ................................................................................................................................. 1

       Background ............................................................................................................................. 1
           Highmark Medicare Services, Inc. ................................................................................. 1
           Medicare Reimbursement of Pension Costs ................................................................... 2

       How We Conducted This Review........................................................................................... 2

FINDING ........................................................................................................................................ 2

       Claimed Pension Costs ........................................................................................................... 2

       Unallowable Pension Costs Claimed ...................................................................................... 3

RECOMMENDATION .................................................................................................................. 3

AUDITEE COMMENTS................................................................................................................ 3

OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................... 4

APPENDIXES

       A: Audit Scope and Methodology .......................................................................................... 6

       B: Federal Requirements Related to
          Reimbursement of Pension Costs ...................................................................................... 8

       C: Allowable Medicare Pension Costs for
          Highmark Medicare Services, Inc.,
          for Fiscal Years 2003 Through 2009 ................................................................................. 9

       D: Auditee Comments ........................................................................................................... 18




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                          iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare contracts.
Previous Office of Inspector General reviews found that Medicare contractors did not always
comply with Federal requirements when claiming pension costs for Medicare reimbursement.

OBJECTIVE

Our objective was to determine whether the pension costs claimed by Highmark Medicare
Services, Inc. (Highmark), for Medicare reimbursement for fiscal years (FYs) 2003 through 2009
were allowable and correctly claimed.

BACKGROUND

Highmark Medicare Services, Inc.

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

During the period January 1, 2002, through January 1, 2006, Highmark maintained two Medicare
segments: a Medicare Part A segment and a Medicare Part B segment. On January 1, 2006,
Highmark consolidated the Medicare Parts A and B segments into a single Medicare segment.

With the implementation of Medicare contracting reform, 1 Highmark continued to perform
Medicare work after being awarded the MAC (Jurisdiction 12) contract on October 24, 2007. 2
While performing its MAC work, Highmark also functioned as a Medicare Part A fiscal
intermediary and Part B carrier, with those contracts terminating in July 2008 and
December 2008, respectively. Highmark continued to work as the Jurisdiction 12 MAC until
January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark, to DSO.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
 Jurisdiction 12 consists of the States of Delaware, Maryland, New Jersey, and Pennsylvania, and the District of
Columbia.


Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                               1
Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the Medicare contractors’ annual pension costs, which are funded
by contributions that these contractors make to their pension plans. To be allowable for
Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR.

Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to identify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS-based pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

HOW WE CONDUCTED THIS REVIEW

We reviewed $12,942,825 of pension costs claimed by Highmark for Medicare reimbursement
on its Final Administrative Cost Proposals (FACPs) for FYs 2003 through 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                FINDING

Highmark claimed pension costs of $12,942,825 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $11,860,049.
The difference, $1,082,776, represented unallowable Medicare pension costs that Highmark
claimed on its FACPs for FYs 2003 through 2009. Highmark claimed these unallowable
Medicare pension costs primarily because it based its claim for Medicare reimbursement on
incorrectly calculated CAS pension costs.

CLAIMED PENSION COSTS

Highmark claimed Medicare pension costs of $12,942,825 for Medicare reimbursement on its
FACPs for FYs 2003 through 2009. We calculated the allowable Medicare pension costs based
on separately computed CAS-based pension costs for the Medicare segment and the Other
segment in accordance with CAS 412 and 413. For details on the Federal requirements, see
Appendix B.




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                            2
UNALLOWABLE PENSION COSTS CLAIMED

We determined that the allowable CAS-based pension costs for FYs 2003 through 2009 were
$11,860,049. Thus, Highmark claimed $1,082,776 of unallowable Medicare pension costs on its
FACPs for FYs 2003 through 2009. This overclaim occurred primarily because Highmark based
its claim for Medicare reimbursement on incorrectly calculated CAS pension costs. Specifically,
Highmark revised its CAS pension costs calculations for 2003 through 2007 but did not revise its
claim for Medicare reimbursement on the basis of those revisions.

The table below shows the differences between the allowable CAS-based pension costs and the
pension costs that Highmark claimed on its FACPs and that were reflected in its accounting
documents. Appendix C contains additional details on allowable pension costs.

         Table: Comparison of Allowable Pension Costs and Claimed Pension Costs

                                      Medicare Pension Costs
                               Allowable              Claimed by
                  Fiscal Year Per Audit               Highmark            Difference
                     2003      $1,758,378                $1,881,060         ($122,682)
                     2004       2,093,160                 2,312,190          (219,030)
                     2005       2,208,140                 2,375,680          (167,540)
                     2006       2,235,247                 2,626,277          (391,030)
                     2007       2,049,244                 2,224,505          (175,261)
                     2008       1,394,002                 1,402,261            (8,259)
                     2009         121,878                   120,852              1,026
                     Total    $11,860,049               $12,942,825       ($1,082,776)

RECOMMENDATION

We recommend that Highmark revise its FACPs for FYs 2003 through 2009 to reduce its
claimed Medicare pension costs by $1,082,776.

                                       AUDITEE COMMENTS

In written comments on our draft report, Highmark did not directly address our recommendation.
However, it is clear from the comments that Highmark did not agree with our recommendation to
reduce its claimed Medicare pension costs by $1,082,776.

Highmark provided information indicating that it agreed in part with our finding and that it
agreed with our recommendations in related report A-07-13-00414 (Appendix A). Highmark did
not, however, agree with the methodology we used when applying prepayment credits.
Specifically, Highmark did not concur with our interpretation of FAR 31.205-6(j)(2)(iii) as it
relates to offsetting prepayment credits from the CAS funding target.

Below is a summary of Highmark’s comments. Highmark’s comments appear in their entirety as
Appendix D.


Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                        3
    •   Highmark agreed that it should have adjusted its FACPs for FYs 2003 through 2006 on
        the basis of the revised CAS pension cost calculations resulting from our prior audit
        (A-07-04-00163, mentioned in Appendix C, endnote 1).

    •   Highmark did not concur with our “interpretation” of FAR 31.205-6(j)(2)(iii) as it relates
        to offsetting prepayment credits from the CAS funding target. In this context, Highmark
        referred to the methodology described in Appendix C, endnote 10, according to which
        we, as Highmark stated, “… generally disallowed quarterly interest because of the
        existence of Highmark’s prepayment credits.” Highmark disagreed with this
        methodology because, it said, “FAR 31.205-6(j)(2)(iii) does not even reference
        prepayment credits.” Highmark added that under its interpretation of the FAR,
        “… interest is only unallowable if payment is made 30 days after the end of each
        quarter.” Highmark stated that because it submitted its quarterly cash contributions
        within 30 days after the end of each quarter, its accrued interest is allowable based on
        FAR 31.205-6(j)(2)(iii). 3

    •   Highmark also stated that while it understood our position of applying prepayment credits
        as of the first day of the year, that position is not supported by FAR 31.205-6(j)(2)(iii).
        Highmark added that our method for applying the prepayment credits is inconsistent with
        FAR 31.205-6(j)(2)(iii) because it limits a contractor’s ability to decide the timing of its
        pension contributions beyond the limitations imposed by that regulation.

    •   Further, Highmark said that our methodology of applying prepayment credits as of the
        first day of the year contravenes CAS Board policy that prepayment credits should have a
        neutral impact from a cost accounting perspective. According to Highmark, our position
        would “… unfairly penalize contractors who have prepayment credits by reducing their
        allowable pension expense.”

On these bases, Highmark recalculated its claimed pension costs for Medicare reimbursement for
FYs 2003 through 2009 as $12,657,422. Accordingly, Highmark identified additional allowable
pension costs of $797,373 due to the interest on its quarterly cash contributions.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in Highmark’s comments caused us to change our finding or recommendation.

We disagree with Highmark’s assertions about our methodology for the calculation of pension
costs when prepayment credits exist. Although Highmark stated that our interpretation and
application of prepayment credits is not supported by FAR 31.205-6(j)(2)(iii), that regulation
states that “[i]ncreased pension costs are unallowable if the increase is caused by a delay in
funding beyond 30 days after each quarter of the year to which they are assignable.” This
provision applies to all cash contributions made to the pension trust. Because Highmark had
made contributions in excess of the CAS funding target in previous years, the resulting

3
 Highmark’s comments included a table (shown at the bottom of the second page of Appendix D) depicting the
deposit dates of Highmark’s quarterly contributions.


Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                      4
prepayment credits were available on the first day of the year to cover the assignable pension
costs.

Highmark had already decided to fund these costs with contributions it made into the pension
trust fund, and for that reason, these funds were unavailable to the contractor for any other
purpose but to fund pension costs. Pursuant to FAR 31.201-2 and 31.201-3, it would not be
reasonable for a prudent person in the conduct of competitive business to ignore the existence of
available funds, earmarked for this purpose only, and thereby incur additional interest costs. By
using current-period cash contributions in lieu of the available prepayment credits to liquidate its
pension costs, Highmark would effectively be incurring additional costs by delaying the funding
of the assignable pension costs. Highmark’s approach of applying cash contributions instead of
prepayment credits would identify additional interest costs of $797,373 that would be
reimbursable under that methodology.

Highmark’s reference to a discussion in the preamble to the publication of the final CAS Pension
Harmonization Rule (CAS 412.50(b)(7)) 4 is not relevant to the application of prepayment credits
in the manner discussed in this report. Rather, the CAS Board discusses how prepayment credits
will be allocated an equal share of investment earnings and administrative expenses based on the
fund’s performance. Although Highmark did not receive interest for quarterly contributions, it
received interest on its prepayment credits (those contributions that exceeded the CAS funding
target) at the valuation rate of interest, as described in Appendix C, endnote 5. CAS 412.50(a)(4)
states: “The accumulated value of such prepayment credits shall be adjusted for interest at the
valuation rate of interest until applied towards pension cost in a future accounting period.” In the
context of our finding that Highmark incorrectly calculated CAS pension costs, and with respect
to our methodology as described in Appendix C, endnote 10, this provision of the CAS, rather
than the discussion cited by Highmark, constitutes the relevant criteria to determine reimbursable
pension costs.




4
    76 Fed. Reg. 81296, 81299 (Dec. 27, 2011).


Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                            5
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $12,942,825 of pension costs that Highmark claimed for Medicare reimbursement
on its FACPs for FYs 2003 through 2009.

Achieving our objective did not require that we review Highmark’s overall internal control
structure. We reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed our fieldwork at Highmark in Camp Hill, Pennsylvania, in September 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit;

    •   reviewed information provided by Highmark to identify the amount of pension costs
        claimed for Medicare reimbursement for FYs 2003 through 2009;

    •   used information that Highmark’s actuarial consulting firms provided, including
        information on assets, liabilities, normal costs, contributions, benefit payments,
        investment earnings, and administrative expenses;

    •   examined Highmark’s accounting records, pension plan documents, annual actuarial
        valuation reports, and Department of Labor/Internal Revenue Service Forms 5500;

    •   determined the extent to which Highmark funded CAS-based pension costs with
        contributions to the pension trust fund and accumulated prepayment credits;

    •   engaged the CMS Office of the Actuary to calculate the allocable pension costs based on
        the CAS (the calculations were based on separately computed CAS-based pension costs
        for the Medicare segment and the Other segment);

    •   reviewed the CMS actuaries’ methodology and calculations; and

    •   provided the results of the review to Highmark officials on July 12, 2013.

We performed this review in conjunction with the following audits and used the information
obtained during these audits:




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                           6
    •   Highmark Medicare Services, Inc., Understated Its Medicare Segment Pension Assets
        and Understated the Medicare Segment Excess Pension Liabilities as of January 1, 2012
        (A-07-13-00414) and

    •   Highmark Medicare Services, Inc., Overstated Its Allocable Pension Costs for Calendar
        Years 2008 Through 2011 (A-07-13-00416).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                         7
                APPENDIX B: FEDERAL REQUIREMENTS RELATED TO
                      REIMBURSEMENT OF PENSION COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 31.205-6(j)) address allowability of pension costs and require that
contractors fund the pension costs assigned to contract periods by making contributions to the
pension plan.

Federal regulations (CAS 412) (as amended) address the determination and measurement of
pension cost components. This regulation also addresses the assignment of pension costs to
appropriate accounting periods.

Federal regulations (CAS 413) (as amended) address the valuation of pension assets, allocation
of pension costs to segments of an organization, adjustment of pension costs for actuarial gains
and losses, and assignment of gains and losses to cost accounting periods.

MEDICARE CONTRACTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                            8
                                                        APPENDIX C: ALLOWABLE MEDICARE PENSION COSTS FOR
                                                                HIGHMARK MEDICARE SERVICES, INC.,
                                                                FOR FISCAL YEARS 2003 THROUGH 2009

                                                                                 Total          Other         Medicare Part A   Medicare Part B
            Date                               Description                      Company        Segment           Segment           Segment        Total Medicare

            2002           Allocable pension costs                         1/                  $19,132,662          $513,542                $0

            2003           Contributions                                   2/   $50,000,000    $50,000,000                $0                $0
                           Discount for interest                           3/   ($2,377,037)   ($2,377,037)               $0                $0
      January 1, 2003      Present value contributions                     4/   $47,622,963    $47,622,963                $0                $0
                           Prepayment credit applied                       5/   $29,708,683    $27,858,812          $872,345          $977,526
                           Present value of funding                        6/   $77,331,646    $75,481,775          $872,345          $977,526

      January 1, 2003      CAS funding target                              7/   $29,708,683    $27,858,812          $872,345          $977,526
                           Percentage funded                               8/                      100.00%           100.00%           100.00%
                           Funded pension cost                             9/                  $27,858,812          $872,345          $977,526
                           Allowable interest                             10/                           $0                $0                $0
                           Allocable pension cost                                              $27,858,812          $872,345          $977,526
            2003           FY allocable pension costs                     11/                  $25,677,275          $782,644          $733,145
                           Medicare Part A LOB* percentage                12/                        0.33%            99.50%
                           Medicare Part B LOB* percentage                13/                        0.63%                             100.00%

            2003           Medicare Part A allowable FY pension cost      14/                     $84,735           $778,731                           $863,466
            2003           Medicare Part B allowable FY pension cost      15/                    $161,767                             $733,145         $894,912
            2003           Total allowable FY pension cost                16/                    $246,502           $778,731          $733,145        $1,758,378




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                                        9
                                                                           Total          Other         Medicare Part A   Medicare Part B
            Date                               Description                Company        Segment           Segment           Segment        Total Medicare

            2004           Contributions                                  $50,049,628    $50,049,628                $0                $0
                           Discount for interest                          ($2,381,992)   ($2,381,992)               $0                $0
      January 1, 2004      Present value contributions                    $47,667,636    $47,667,636                $0                $0
                           Prepayment credit applied                      $30,701,214    $28,928,210          $864,322          $908,682
                           Present value of funding                       $78,368,850    $76,595,846          $864,322          $908,682

      January 1, 2004      CAS funding target                             $30,701,214    $28,928,210          $864,322          $908,682
                           Percentage funded                                                 100.00%           100.00%           100.00%
                           Funded pension cost                                           $28,928,210          $864,322          $908,682
                           Allowable interest                                                     $0                $0                $0
                           Allocable pension cost                                        $28,928,210          $864,322          $908,682
            2004           FY allocable pension costs                                    $28,660,861          $866,328          $925,893
                           Medicare Part A LOB* percentage                                     0.37%           100.00%
                           Medicare Part B LOB* percentage                                     0.68%                             100.00%

            2004           Medicare Part A allowable FY pension cost                       $106,045           $866,328                            $972,373
            2004           Medicare Part B allowable FY pension cost                       $194,894                             $925,893        $1,120,787
            2004           Total allowable FY pension cost                                 $300,939           $866,328          $925,893        $2,093,160




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                                 10
                                                                                 Total          Other         Medicare            Gateway
            Date                               Description                      Company        Segment        Segment             Segment      Total Medicare

            2005           Contributions                                  17/   $66,196,005    $66,196,005             $0                 $0
                           Discount for interest                                ($3,756,501)   ($3,756,501)            $0                 $0
      January 1, 2005      Present value contributions                          $62,439,504    $62,439,504             $0                 $0
                           Prepayment credit applied                            $33,792,670    $31,091,700     $2,015,049           $685,921
                           Present value of funding                             $96,232,174    $93,531,204     $2,015,049           $685,921

      January 1, 2005      CAS funding target                                   $33,792,670    $31,091,700     $2,015,049           $685,921
                           Percentage funded                                                       100.00%        100.00%            100.00%
                           Funded pension cost                                                 $31,091,700     $2,015,049           $685,921
                           Allowable interest                                                           $0             $0                 $0
                           Allocable pension cost                                              $31,091,700     $2,015,049           $685,921
            2005           FY allocable pension costs                     18/                  $30,550,828     $1,954,538   n/a
                           Medicare Part A LOB* percentage                                           0.32%         39.30%           n/a
                           Medicare Part B LOB* percentage                                           0.56%         59.92%           n/a

            2005           Medicare Part A allowable FY pension cost                              $97,763        $768,133           n/a              $865,896
            2005           Medicare Part B allowable FY pension cost                             $171,085      $1,171,159           n/a            $1,342,244
            2005           Total allowable FY pension cost                                       $268,848      $1,939,292           n/a            $2,208,140




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                                    11
                                                                           Total          Other         Medicare      Gateway
            Date                               Description                Company        Segment        Segment       Segment       Total Medicare

            2006           Contributions                                  $48,295,628    $48,295,628             $0           $0
                           Discount for interest                          ($2,285,993)   ($2,285,993)            $0           $0
      January 1, 2006      Present value contributions                    $46,009,635    $46,009,635             $0           $0
                           Prepayment credit applied                      $38,783,752    $35,914,054     $1,961,562     $908,136
                           Present value of funding                       $84,793,387    $81,923,689     $1,961,562     $908,136

      January 1, 2006      CAS funding target                             $38,783,752    $35,914,054     $1,961,562      $908,136
                           Percentage funded                                                 100.00%        100.00%       100.00%
                           Funded pension cost                                           $35,914,054     $1,961,562      $908,136
                           Allowable interest                                                     $0             $0            $0
                           Allocable pension cost                                        $35,914,054     $1,961,562      $908,136
            2006           FY allocable pension costs                                    $34,708,466     $1,974,934     n/a
                           Medicare Part A LOB* percentage                                     0.31%         40.77%     n/a
                           Medicare Part B LOB* percentage                                     0.44%         59.23%     n/a

            2006           Medicare Part A allowable FY pension cost                       $107,596        $805,181     n/a               $912,777
            2006           Medicare Part B allowable FY pension cost                       $152,717      $1,169,753     n/a             $1,322,470
            2006           Total allowable FY pension cost                                 $260,313      $1,974,934     n/a             $2,235,247




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                         12
                                                                           Total          Other         Medicare      Gateway
            Date                               Description                Company        Segment        Segment       Segment       Total Medicare

            2007           Contributions                                  $50,189,900    $50,189,900             $0            $0
                           Discount for interest                          ($2,375,655)   ($2,375,655)            $0            $0
      January 1, 2007      Present value contributions                    $47,814,245    $47,814,245             $0            $0
                           Prepayment credit applied                      $40,411,395    $37,558,358     $1,766,434    $1,086,603
                           Present value of funding                       $88,225,640    $85,372,603     $1,766,434    $1,086,603

      January 1, 2007      CAS funding target                             $40,411,395    $37,558,358     $1,766,434    $1,086,603
                           Percentage funded                                                 100.00%        100.00%       100.00%
                           Funded pension cost                                           $37,558,358     $1,766,434    $1,086,603
                           Allowable interest                                                     $0             $0            $0
                           Allocable pension cost                                        $37,558,358     $1,766,434    $1,086,603
            2007           FY allocable pension costs                                    $37,147,282     $1,815,216     n/a
                           Medicare Part A LOB* percentage                                     0.27%         43.16%     n/a
                           Medicare Part B LOB* percentage                                     0.36%         56.84%     n/a

            2007           Medicare Part A allowable FY pension cost                       $100,298        $783,447     n/a               $883,745
            2007           Medicare Part B allowable FY pension cost                       $133,730      $1,031,769     n/a             $1,165,499
            2007           Total allowable FY pension cost                                 $234,028      $1,815,216     n/a             $2,049,244




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                         13
                                                                                  Total           Other         Medicare      Gateway
            Date                               Description                       Company         Segment        Segment       Segment       Total Medicare

            2008           Contributions                                        $251,581,464    $251,581,464             $0            $0
                           Discount for interest                                ($16,621,149)   ($16,621,149)            $0            $0
      January 1, 2008      Present value contributions                          $234,960,315    $234,960,315             $0            $0
                           Prepayment credit applied                             $42,561,656     $39,478,592     $1,700,340    $1,382,724
                           Present value of funding                             $277,521,971    $274,438,907     $1,700,340    $1,382,724

      January 1, 2008      CAS funding target                                    $42,561,656     $39,478,592     $1,700,340    $1,382,724
                           Percentage funded                                                         100.00%        100.00%       100.00%
                           Funded pension cost                                                   $39,478,592     $1,700,340    $1,382,724
                           Allowable interest                                                             $0             $0            $0
                           Allocable pension cost                                                $39,478,592     $1,700,340    $1,382,724
            2008           FY allocable pension costs                                            $38,998,534     $1,716,864     n/a
                           Medicare Part A LOB* percentage                19/                          0.24%         26.10%     n/a
                           Medicare Part B LOB* percentage                                             0.27%         43.51%     n/a

            2008           Medicare Part A allowable FY pension cost                                $93,596        $448,102     n/a               $541,698
            2008           Medicare Part B allowable FY pension cost                               $105,296        $747,008     n/a               $852,304
            2008           Total allowable FY pension cost+D240                                    $198,892      $1,195,110     n/a             $1,394,002




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                                 14
                                                                                  Total               Other              Medicare               Gateway
            Date                               Description                       Company             Segment             Segment                Segment           Total Medicare

            2009           FY Allocable Pension costs                      20/                        $9,869,648              $425,085             n/a
                           Medicare Part B LOB* percentage                 21/                             0.19%                24.26%             n/a

            2009           Medicare Part B allowable FY pension cost                                     $18,752              $103,126             n/a                   $121,878

    * Line of business.

ENDNOTES

 1/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes. We obtained the 2002 calendar year (CY) allocable pension
    cost from our prior Highmark review (A-07-04-00163), issued January 21, 2005.

 2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The contributions included deposits made during
    the CY and accrued contributions deposited after the end of the CY but within the time allowed for filing tax returns. We determined the contributions allocated to the
    Medicare segment during the pension segmentation review (A-07-13-00414). The amounts shown for the Other segment represent the difference between the Total
    Company, the Medicare segments, and the Gateway segment. The Gateway segment does not perform Medicare operations.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the contributions back to their beginning-of-
    the-year value. For purposes of this Appendix, we computed the interest as the difference between the present value of contributions (at the CAS valuation interest rate) and
    actual contribution amounts.

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the CY. For purposes of this Appendix, we
    deemed deposits made after the end of the CY to have been made on the final day of the CY, consistent with the method established by the Employee Retirement Income
    Security Act prior to the implementation of the Pension Protection Act.




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                                                           15
 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created when contributions, plus interest,
    exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with interest, to fund future CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that is available to cover the CAS funding
    target measured at the first day of the CY.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the FAR 31.205-6(j)(2)(i).

 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because any funding in excess of the CAS funding
    target is accounted for as a prepayment in accordance with CAS 412.50(c)(1), the funded ratio may not exceed 100 percent. We computed the percentage funded as the
    present value of funding divided by the CAS funding target. For purposes of illustration, the percentage of funding has been rounded to four decimal places.

 9/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the interest on contributions bears to the
    present value of contributions. However, we limited the interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the
    interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.


11/ We converted the allocable pension cost to an FY basis (October 1 through September 30). We calculated the FY pension costs as 1/4 of the prior year’s costs plus 3/4 of the
    current year’s costs.

12/ We calculated the Medicare Part A line of business (LOB) percentages based on information provided by Highmark.

13/ We calculated the Medicare Part B LOB percentages based on information provided by Highmark.

14/ We computed the allowable Medicare Part A pension cost as an FY pension cost multiplied by the Medicare Part A LOB percentage. In accordance with CAS 412 and 413,
    the total Medicare Part A allowable pension costs charged to the Medicare contract consisted of the Highmark Medicare segment’s direct pension costs plus Other segment
    pension costs attributable to indirect Highmark Medicare operations.

15/ We computed the allowable Medicare Part B pension cost as an FY pension cost multiplied by the Medicare Part B LOB percentage. In accordance with CAS 412 and 413,
    the total Medicare Part B allowable pension costs charged to the Medicare contract consisted of the Highmark Medicare segment’s direct pension costs plus Other segment
    pension costs attributable to indirect Highmark Medicare operations.

16/ We computed the total allowable FY Medicare pension cost as the sum of the Medicare Part A pension cost and the Medicare Part B pension cost.




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                                                          16
17/ The Gateway Pension Plan merged with the Highmark Pension Plan effective December 31, 2004. Therefore, the amounts shown for the Other segment represent the
    difference between the Total Company, the Medicare segments, and the Gateway segment. The Gateway segment does not perform Medicare operations.

18/ Highmark combined its Medicare Part A and Part B segments on January 1, 2006. Therefore, we calculated the FY Medicare segment pension costs as 1/4 of the prior
    year’s Medicare Part A and Part B costs plus 3/4 of the combined segment’s current year’s costs.

19/ The Medicare Part A LOB percentage is calculated for the period October 2007 through July 2008. The Medicare Part A business transitioned to the Jurisdiction 12 (J12)
    MAC contract effective July 2008. The MAC allocable pension costs are calculated in a separate allocable pension cost report (A-07-13-00416).

20/ The 2009 FY allocable pension cost is calculated for the period October 2008 through December 2008. Highmark’s Title XVIII contract transitioned to the MAC contract in
    December 2008.

21/ The Medicare Part B LOB percentage is calculated for the period October 2008 through December 2008. The Medicare Part B business transitioned to the J12 MAC
    contract effective December 2008. The MAC allocable pension costs are calculated in a separate allocable pension cost report (A-07-13-00416).




Highmark Medicare Services, Inc., Pension Costs Claimed (A-07-13-00415)                                                                                                      17
                                   APPENDIX D: AUDITEE COMMENTS 




                                                  <fiiGHMARK,

             December 9, 2013


             Mr. Patrick Cogley
             Regional Inspector General for Audit Services
             Office ofAudit Services, Region VII
             Department of Health and Human Services
             601 East 12th Street, Room 0429
             Kansas City, MO 64106

            Subject: OIG Report Number A-07-13-00415

             Dear Mr. Cogley:

             Thank you for affording Highmark Inc. ("Highmark") this opportunity to comment on
             the U.S. Department of Health and Human Services, Office of Inspector General
             ("OIG"), draft report entitled Highmark Medicare Services, Inc., Claimed Some
             Unallowable Medicare Pension Costs for Fiscal Years 2003 Throu gh 2009.

             We have carefully reviewed both the draft audit report and the additional detailed
             supplemental information received from the audit team. Our comments on the
             recommendations specific to this report are provided below:

             1. 	   Highmark agrees that the Final Administrative Cost Proposals (FACPs) were not
                    revised for prior year audit findings specific to Fiscal Years (FYs) 2003-2006, the
                    impact of which was a $363,232 decrease in pension costs. The results of the prior
                    audit through FY 2002 were issued during 2007, and changes specific to FY 2007
                    were incorporated in the 2007 FACPs. The 2003-2006 FACPs were not revised
                    specific to the pension plan findings based on the collective net impact of prior year
                    audit findings in the pension, nonqualified pension and welfare plans. In
                    consideration of the net impact of the collective findings, Highmark agrees that it
                    should have adjusted its claim for Medicare reimbursement based on the revised
                    CAS pension cost calculations resulting from the prior audit.

             2. 	 Highmark agrees    that the recommendations in OIG Report No. A-07-13-00414
                    impact the Medicare segment pension costs. The impact of the demographic
                    recommendations included in OIG Report No. A-07-13-00414 was an increase in
                    CAS pension cost of $77,829.


                                                        Corpnmle   Ofii((·~:




Highmark Medicare Services, Inc., Pension Costs Claimed (A-0 7-I 3-0041 5)                                   18
            3. 	 Highmark does not concur with OIG's interpretation of FAR 31.205-6G)(2)(iii) as it
                 relates to offsetting the prepayment credits from the CAS funding target. Our
                 rationale for this disagreement is outlined below.

            The OIG audit report generally disallowed quarterly interest because ofthe existence of
            Highmark's prepayment credits. The OIG explained its rationale for disallowing
            quarterly interest in a footnote to the report:

                   We assumed that interest on the funded CAS-based pension cost, less the
                   prepayment credit, accrues in the same proportion as the interest on
                   contributions bears to the present value of contributions. However, we
                   limited the interest in accordance with FAR 31.205-6G)(2)(iii), which does
                   not permit the allowable interest to exceed the interest that would accrue if
                   the CAS funding target, less the prepayment credit, were funded in four
                   equal installme nts deposited within 30 days after the end ofthe quarter.

            OIG Report No. A-07-13-00415 at 14, n.10.

            Highmark disagrees with the rationale offered by OIG because FAR 31.205-6G)(2)(iii)
            provides no support for OIG's position that quarterly interest cannot accrue if the
            contractor has prepayment credits. FAR 31.205-6G)(2)(iii) does not even reference
            prepayment credits. Instead, FAR 31.205-6G)(2)(iii) simply provides that "[i]ncreased
            pension costs are unallowable if the increase is caused by a delay in funding beyond 30
            days after each quarter of the year to which they are assignable." Accordingly, interest is
            only unallowable if payment is made 30 days after the end of each quarter. As shown
            below, Highmark submitted quarterly cash contnbutions within 30 days after the end of
            each quarter. The accrued interest on Highmark's quarterly pension payments is
            therefore allowable in accordance with the plain language ofFAR 31.205-6G)(2)(iii).

                                           High mark Qualified Pension Plan Contributions 

                                                     April lS, 2003 - July 15, 2009 

             Contribution Date       Amount        Contri bution Date       Amount     Contribution Date     Amount
                 7/15/2009       $    19,199,659        4/13/2007         $12,547,475       12/15/2004     $12,512,407
                4/15/2009        $    19,199,659       12/15/2006         $12,073,907       10/15/2004     $12,512,407
                12/15/2008       $    12,895,366       10/13/2006         $12,073,907       7/15/2004      $12,512,407
                12/lS/2008       $   200,000,000        7/14/2006         $12,073,907       4/15/2004      $12,512,407
                10/15/2008       $    12,895,366        4/13/2006         $12,073,907       12/15/2003     $12,500,000
                 4/15/2008       $    12,895,366        4/11/2006         $20,000,000       10/15/2003     $12,500,000
                4/15/2008        $    12,895,366       12/15/2005         $11,712,726       7/14/2003      $12,500,000
                12/14/2007       $    12,547,475       10/14/2005         $11,712,725       4/15/2003      $12,500,000
                10/15/2007       $    12,547,475        7/15/2005         $ 11,712,725
                 7/13/2007       $    12,547,475        4/15/2005         $11,057,829

                       Highmark Medicare Services Inc. Responses (A-o?-13-00415)




Highmark M edicare Services, Inc., Pension Costs C laimed (A-07-13-00415)                                                19
               We understand that OIG takes the position that contractors are required to apply
               prepayment credits as of the first day ofthe fiscal year. As discussed above, that
               position is not supported by FAR 31.205-6G)(2)(iii), which does not reference
               prepayment credits. To the contrary, Highmark submits that OIG's position is
               inconsistent with FAR 31.205-6G)(2)(iii), because it would limit a contractor's ability to
               decide the timing of its pension contributions beyond the limitations imposed by that
               regulation. OIG's position requires every contractor with prepayment credits to make
               100% of its annual pension contribution (up to the amount ofthe prepayment credit) on
               the first day ofthe fiscal year. Such a position is contrary to the plain language of FAR
               31.205-6G)(2)(iii) , which expressly allows contractors to make quarterly payments, and
               which expressly provides that interest on such payments is allowable so long as the
               payment is made within 30 days after the end of each quarter.

               OIG has cited to no other authority that would require contractors to apply prepayment
               credits at the start of the fiscal year or risk having their accrued quarterly interest
               disallowed. Highmark respectfully submits that the OIG's position contravenes stated
               CAS Board policy that prepayment credits should be neutral from a cost accounting
               perspective. See 76 Fed. Reg. 81296, 81299 (Dec. 27, 2011) ("A decision to fund in
               excess ofthe CAS assigned cost should have a neutral impact on Government contract
               costing, although it might have a transitory negative impact on the contractor's cash
               flow."). OIG's position would unfairly penalize contractors who have prepayment
               credits by reducing their allowable pension expense. In particular, contractors without
               prepayment credits could recover interest on their quarterly pension contributions,
               while contractors with prepayment credits would not be entitled to such interest. This
               would be true even where the contractor, like Highmark, actually submitted cash
               contributions throughout the year, and thus actually accrued interest on its pension
               obligations. Where the CAS Board previously recognized that the use of prepayment
               credits should have a neutral impact on government contract cost accounting, OIG's
               position is unsupportable not simply as a matter oflaw, but also as a matter of policy.

               Highmark recalculated claimed pension costs for Medicare reimbursement FYs 2003
               through 2009 as $12,657.422. This amount includes the impact ofltem No.2 (i.e., the
               recommendation of OIG Report No. A-07-13-00414), but does not reflect acceptance of
               Item No. 3 (i.e., the interest adjustment) . The difference between the recalculated
               amount of $12,657.422 and the OIG Report amount of $n,860,049 of $797,373 was
               driven by the interest adjustments discussed above. Our actuary has developed these
               revised figures based on the information contained in OIG Report Nos. A-07-13-00414
               and A-07-13-00416, and the additional detailed supplemental information received
               from the audit team.

           -             Highmark Medicare Services Inc. Responses (A..07-J3-{)()415)




H ighmark M edicare S ervices, Inc., Pension Costs C laimed (A-07-13-00415)                                 20
             Thank you again for affording Highmark the opportunity to comment on this report.
             We believe that resolution of the issues raised can best be achieved through an open
             dialogue between the government and Highmark. In that regard, please do not hesitate
             to contact me at (412) 544-6902 or through email at Janine.Colinear@Highmark.com if
             you have any questions regarding this response.

             Sincerely,


                · e K Colinear
             Chief Accounting Officer
             Highmark Inc.




                      Highmark Medicare Se!Yices Inc. Responses (A-o7-13-()()4J5)




Highmark Medicare Services, Inc., Pension Costs Claimed (A-0 7-13-00415)                            21
